V:

No:

In the
Supreme Court of the United States
OSCAR ARMANDO AVILA-JAIMES,
Petitioner,
vs.

UNITED STATES OF AMERICA,
Respondent.

ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

PROOF OF SERVICE

I, Oscar Armando Avila-Jaimes, do swear declare that on this day,
day of July 2020, as required by Supreme Court Rule 29,1 have served the
enclosed Motion for Leave to Proceed in Forma Pauperis and Petition for Writ of
Certiorari, on the Solicitor General of the United States, Room 5614, Department
of Justice, 10th Street and Constitution Ave., N.W., Washington, D.C. 20530, and

DECEIVED
JUL 2 9 2020

V‘

every other person required to be served, by depositing the same in the Prison’s
Legal Mail Box with sufficient First Class Prepaid Postage.
I hereby do certify that pursuant to Penalty
of Peijury Title 28 U.S.C. § 1746 that on
this \\ day of July 2020 I signed and
mailed this document via the Federal Bureau
of Prisons’ Legal Mail System.

Oscar Armando Avila-Jaimes
Register Number # 44428-380
FCI Loretto
P.O. Box 1000
Cresson, PA 15940

\
*JTV

V>

No:

In the
Supreme Court of the United States
OSCAR ARMANDO AVILA-JAIMES,
Petitioner,
vs.

UNITED STATES OF AMERICA,
Respondent.

ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

CERTIFICATE OF FILING

I, Oscar Armando Avila-Jaimes, do hereby certify under penalty of perjury
pursuant to Title 28 U.S.C. § 1746, that on July

1 \ , 2020 I placed my copy of

my petition for a Writ of Certiorari to the United States Supreme Court in the
Federal Prison’s FCI Loretto - Legal Mail Box for mailing with sufficient First
Class Postage. Accordingly, the Writ of Certiorari was timely mailed to this Court
for filing prior to the filing deadline.

'i

I also served the United States Solicitor General with a copy of the brief as
required per Rule 29 of the Supreme Court rules.
I hereby do certify that pursuant to Penalty
of Perjury Title 28 U.S.C. § 1746 that on
this [\ day of July 2020 I signed and
mailed this document via the Federal Bureau
of Prisons’ Legal Mail System.

Oscar Armando Avila-Jaimes
Register Number # 44428-380
FCI Loretto
P.O. Box 1000
Cresson, PA 15940

